Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      MEDICARE PAYMENTS
     FOR NEWLY AVAILABLE
        GENERIC DRUGS




                    Daniel R. Levinson
                     Inspector General

                      January 2011
                     OEI-03-09-00510
   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  1. To estimate the financial impact of the two-quarter reimbursement
                     lag on Medicare payments for Part B-covered drugs with newly
                     available generic versions.

                  2. To estimate when high-expenditure brand-only Part B-covered
                     drugs will likely have first-generic versions reach the market.


                  BACKGROUND
                  Although Medicare Part D covers most prescription drugs, Part B
                  continues to cover a limited number of outpatient prescription drugs.
                  Payment for most Part B-covered drugs is equal to 106 percent of the
                  average sales price (ASP) for all versions of a drug. Manufacturers are
                  required to submit ASP data to the Centers for Medicare & Medicaid
                  Services (CMS) within 30 days after the close of each quarter, and the
                  data are used to calculate the payment amount for the following
                  quarter. As a result, there is a two-quarter lag between when sales
                  occur and when the payment amount reflects those sales. This
                  reimbursement lag is especially problematic when newly available
                  generic drugs enter the market, as their ASPs are often substantially
                  lower than their brand counterparts, but payment amounts remain at
                  the higher brand level for two quarters or more.

                  A previous Office of Inspector General (OIG) report highlighted the
                  vulnerabilities of the two-quarter lag by estimating the amount that
                  Medicare would have saved if reimbursement had been based on actual
                  market sales prices for one high-expenditure Part B-covered drug. OIG
                  recommended that CMS explore options to ensure that payment
                  amounts reflect actual market prices in a more timely manner. CMS
                  concurred with our recommendation; however, as of May 2010, CMS has
                  yet to make any changes to its reimbursement process.

                  For this study, we examined the Medicare payment amounts for 16 Part
                  B-covered drugs that we identified as having first-generic versions
                  reach the market in 2007, 2008, or the first two quarters of 2009. For
                  each of the drugs, we determined how much Part B spending would
                  have decreased had there been no two-quarter lag during the initial
                  period of generic availability (i.e., the first three quarters in which
                  generics were available). We then totaled these figures to determine the
                  net financial impact of the two-quarter lag on Part B and its
                  beneficiaries. To provide context for the future impact of the

OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                             i
E X E C U T I V E                       S U          M M A R Y


                   two-quarter lag, we also requested from the Food and Drug
                   Administration (FDA) the estimated date of generic approval for the top
                   dollar-volume brand drugs covered under Part B.


                   FINDINGS
                   Medicare could have saved an estimated $111 million had payment
                   amounts immediately reflected generic sales prices for 16 drugs.
                   The financial impact of the two-quarter reimbursement lag in the period
                   of initial generic availability for 16 newly available generic drugs
                   totaled approximately $111 million. These potential savings accounted
                   for 25 percent of total expenditures for these drugs during the same
                   period. It is not just the program itself, but also Medicare beneficiaries
                   who feel the financial effect of the reimbursement lag (because of cost
                   sharing).

                   Furthermore, it may take years for Medicare to realize the full savings
                   of generic versions. The average payment amounts for the drugs under
                   review continued to decline beyond the period of initial generic
                   availability, ending with an average payment amount 2 years after the
                   introduction of generics that was nearly 60 percent less than that of the
                   original brand-only payment amount. Additionally, brand drugs were
                   initially 3 times more expensive than their generic versions, on average.
                   According to FDA, numerous high-expenditure drugs could have
                   first-generic versions approved in the next several years. According
                   to FDA, 26 of the 48 top dollar-volume brand drugs covered under
                   Part B either already have or could have generic versions approved for
                   the first time in the next several years. These 26 drugs had combined
                   Part B expenditures of over $2.8 billion in 2009. The remaining
                   22 drugs are biologics, which comprise nearly half of all current
                   high-dollar brand-only Part B drugs, and (because of recent legislation)
                   may have generic versions approved in the future. Part B spending on
                   the top 22 biologics totaled over $5.3 billion in 2009.
                   Significant obstacles remain in proactively identifying newly
                   available generic drugs. Although FDA publishes the date of approval
                   for first generics, this date is often not an accurate indicator of the entry
                   of generic versions into the market because issues such as patent
                   litigation and marketing agreements may affect the date of generic
                   availability. Our analysis identified a number of drugs with
                   FDA-estimated dates of generic approval that did not coincide with the
                   generic market entry dates, including two drugs FDA identified as

 OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                              ii
E X E C U T I V E                       S U          M M A R Y


                   having first-generic versions but appear to have never reached the
                   market. For another group of drugs, generic manufacturers failed to
                   report ASPs in a timely manner, increasing the difficulty in setting
                   payment amounts that accurately reflect sales of newly available
                   generic drugs.


                   RECOMMENDATION
                   This is the second OIG report to identify systemic vulnerabilities in
                   Part B as a result of the two-quarter lag in payments for newly
                   available generic drugs. We found that Medicare payment amounts
                   were significantly higher than market prices for an extended period for
                   the newly available generic drugs under review. In other words, generic
                   versions of these drugs were being administered or dispensed to
                   beneficiaries, but Medicare was still paying brand prices. Although
                   other government and privately sponsored prescription drug programs
                   are designed to take advantage of lower-priced generic drugs, our
                   findings demonstrate that the Part B reimbursement system fails to
                   capture these potential savings for at least two quarters.
                   With more than half of the top dollar-volume brand drugs covered under
                   Part B potentially gaining approval in generic form over the next
                   4 years, and the creation under the Patient Protection and Affordable
                   Care Act of a new approval pathway for generic biologics, this
                   vulnerability will likely continue to grow if CMS does not make changes
                   to its Part B payment system. We therefore recommend that:
                   CMS work with Congress to require manufacturers of first generics
                   to submit monthly ASP data during the period of initial generic
                   availability. By requiring manufacturers of first generics to report ASPs
                   on a monthly basis when the generics first become available, CMS could
                   substantially reduce the two-quarter lag and make Medicare payment
                   amounts more reflective of actual market prices. If CMS finds this to be
                   an effective means for alleviating the financial impact of the
                   two-quarter lag, the agency may wish to consider requiring monthly
                   ASP submissions for all Part B-covered drugs.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS did not concur with our recommendation, citing potential problems
                   with manufacturer price submissions and increased administrative
                   burdens under a proposed monthly ASP reporting requirement. CMS

 OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                              iii
E X E C U T I V E                       S U          M M A R Y


                   also stated that it believes the two-quarter lag protects Medicare and its
                   beneficiaries from unchecked price increases and is an incentive for
                   faster generic utilization.

                   Because of the two-quarter lag, Part B and its beneficiaries are denied
                   significant potential savings when generic versions first become
                   available. Therefore, we believe that the savings from a reduced
                   reimbursement lag may outweigh any difficulties with implementing a
                   monthly ASP reporting system. Furthermore, we note that the
                   ASP-based reimbursement system (in which all versions of a drug
                   assigned to one payment code are paid at the same amount) is a natural
                   incentive for manufacturers to limit rapid price increases, as well as for
                   providers to utilize generic versions.




 OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                              iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                    Medicare could have saved an estimated $111 million had
                    payment amounts immediately reflected generic sales prices for
                    16 drugs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    According to FDA, numerous high-expenditure drugs could have
                    first-generic versions approved in the next several years . . . . . . . 15

                    Significant obstacles remain in proactively identifying newly
                    available generic drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                    Agency Comments and Office of Inspector General Response . . . 20



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    A: Detailed Methodology for Identifying First-Generic Drugs
                       and Their Dates of Market Entry. . . . . . . . . . . . . . . . . . . . . . . 23

                    B: First-Generic Drugs Included in Our Analysis. . . . . . . . . . . . . 25

                    C: Medicare Payment Amounts for 16 Newly Available Generic
                       Drugs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

                    D: Estimated Generic Approval Timeline for the Top
                       26 Dollar-Volume Brand-Only Part B Drugs (Biologics
                       Excluded), According to FDA . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    E: Top 22 Dollar-Volume Biologics Under Part B. . . . . . . . . . . . . 29

                    F: Comparison of FDA’s ANDA Approval Dates and Actual
                       Generic Entry Dates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                    G: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To estimate the financial impact of the two-quarter reimbursement
                     lag on Medicare payments for Part B-covered drugs with newly
                     available generic versions.

                  2. To estimate when high-expenditure brand-only Part B-covered
                     drugs will likely have first-generic versions reach the market.


                  BACKGROUND
                  In 2009, Medicare spent approximately $11 billion on Part B-covered
                  drugs. 1 Medicare pays for most prescription drugs covered under Part
                  B based on manufacturer-reported average sales prices (ASP). Because
                  payment amounts are determined using ASP data from two quarters
                  earlier, it may take 6 months or more for Medicare reimbursement to
                  reflect any price changes in the marketplace.
                  A previous Office of Inspector General (OIG) report 2 found that this
                  two-quarter reimbursement lag had negative financial consequences for
                  the Medicare program and its beneficiaries (through higher
                  coinsurance) when lower-priced generic versions of the cancer drug
                  irinotecan first reached the market. In its comments to that report, the
                  Centers for Medicare & Medicaid Services (CMS) concurred with our
                  recommendation that the agency explore options that would allow
                  payment amounts to more accurately reflect new generic prices. CMS
                  stated that it is interested in any suggestions OIG may have to improve
                  the methods used to collect and array data under the ASP system. 3
                  However, CMS has yet to make any changes that would allow Medicare
                  to take advantage of the lower prices of newly available generic drugs in
                  a more timely manner. To that end, this study expands on previous
                  work by examining the impact of the two-quarter lag on a broader scale.
                  Payment for Medicare Part B-Covered Drugs
                  Although Medicare Part D covers most outpatient prescription drugs,
                  CMS continues to cover a limited number of outpatient prescription
                  drugs and biologicals (hereinafter referred to as drugs) under its Part B
                  benefit. Part B-covered drugs generally fall into the following


                      1 Part B Analytics Reporting (PBAR) (98 percent of claims reported). Accessed on
                  March 29, 2010.
                      2 OIG,     Medicare Payment for Irinotecan, OEI-03-08-00310, August 2008.
                      3 Ibid.




OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                             1
I N T R O D        U C T            I O N


                    categories: drugs furnished incident to a physician’s service
                    (e.g., injectable drugs used in connection with the treatment of cancer),
                    drugs explicitly covered by statute (e.g., some vaccines and oral
                    anticancer drugs), and drugs used in conjunction with durable medical
                    equipment (e.g., inhalation drugs). 4
                    To obtain Medicare payment for Part B-covered drugs, physicians and
                    suppliers submit claims, using the Healthcare Common Procedure
                    Coding System (HCPCS) codes, to claims-processing contractors. The
                    HCPCS codes provide a standardized system for describing specific
                    items and services provided in the delivery of health care. In the case of
                    prescription drugs, each HCPCS code defines the drug ingredient name
                    and billing unit size but does not specify the manufacturer or package
                    size. As a result, HCPCS codes for single-source drugs (i.e., drugs with
                    no available generic versions) typically include products from only one
                    manufacturer, and HCPCS codes for multiple-source drugs (i.e., drugs
                    with generic versions) include products from multiple manufacturers.
                    CMS pays for most Part B-covered drugs based on their ASPs. 5 The
                    ASP is defined as a manufacturer’s sales of a drug to all purchasers in
                    the United States in a calendar quarter divided by the total number of
                    units of the drug sold by the manufacturer in that same quarter. 6 The
                    ASP is net of any price concessions, such as volume discounts,
                    prompt-pay discounts, cash discounts, free goods contingent on
                    purchase requirements, chargebacks, and rebates other than those
                    obtained through the Medicaid drug rebate program. 7 Sales that are
                    nominal in amount are exempted from the ASP calculation, as are sales
                    excluded from the determination of “best price” in the Medicaid drug
                    rebate program. 8, 9
                    Medicare payment amounts for most Part B-covered prescription drugs
                    are equal to 106 percent of the volume-weighted ASPs for the HCPCS

                        4 68 Fed. Reg. 50428, 50429 (Aug. 20, 2003).
                        5 Several Part B drugs, including certain vaccines and blood products, are not paid under
                    the ASP methodology.
                      6 Section 1847A(c) of the Social Security Act (the Act), as added by the Medicare
                    Prescription Drug, Improvement, and Modernization Act of 2003 (MMA), P.L. 108-173.
                        7 Section 1847A(c)(3) of the Act.
                        8 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                    from the manufacturer during the rebate period to any wholesaler, retailer, provider, health
                    maintenance organization, nonprofit entity, or governmental entity within the United
                    States, with certain exceptions.
                        9 Section 1847A(c)(2) of the Act.




 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                        2
I N T R O D        U C T            I O N


                    codes. Medicare beneficiaries are responsible for 20 percent of this
                    amount in the form of coinsurance.
                    Manufacturer Reporting Requirements
                    ASP data. Manufacturers with Medicaid drug rebate agreements in
                    effect must, among other things, provide CMS with pricing information,
                    including the ASP for each of their Part B-covered drugs and the
                    average manufacturer price (AMP) for each of their Medicaid-covered
                    drugs. 10, 11 Manufacturers report ASPs for Part B-covered drugs by
                    national drug codes (NDC), which are 11-digit numeric codes divided
                    into three segments identifying (1) the firm that manufactures,
                    distributes, or repackages 12 the drug product (i.e., the labeler code);
                    (2) the specific strength, dosage form, and formulation of the product;
                    and (3) the product’s package size. Manufacturers are required to
                    provide CMS with the ASP and volume of sales for each NDC within
                    30 days of the end of each quarter. 13 Because Medicare payment for
                    Part B-covered drugs is based on HCPCS codes rather than NDCs and
                    more than one NDC may meet the definition of a particular HCPCS
                    code, CMS has developed a file that “crosswalks” manufacturers’ NDCs
                    to HCPCS codes.

                    Manufacturers may face civil money penalties or suspension of their
                    rebate agreements if they knowingly provide false information about
                    their ASPs, fail to report ASP data in the required timeframe, or make
                    misrepresentations in reporting ASPs. 14 The penalties associated with
                    late submissions may be increased by up to $10,000 for each day ASP
                    data are not provided. 15
                    The Two-Quarter Lag in Reimbursement for Part B-Covered Drugs
                    CMS’s ASP payment methodology has an inherent lag between the time
                    when sales occur and when the sales become the basis for payment
                    amounts. Manufacturers must provide CMS with the required ASP

                        10 For Federal payment to be available for covered outpatient drugs provided under

                    Medicaid, sections 1927(a)(1) and (b)(1) of the Act mandate that drug manufacturers enter
                    into rebate agreements with the Secretary of Health & Human Services and pay quarterly
                    rebates to State Medicaid agencies.
                     11 Medicaid rebates are based on AMPs. ASPs are not used in the calculation of
                    Medicaid rebates.
                      12 A repackager purchases drugs from manufacturers and typically repackages them into
                    smaller quantities.
                        13 Section 1927(b)(3) of the Act and 42 CFR § 414.804(a)(5).
                        14 Sections 1927(b)(3)(C)(i) and (ii) of the Act and § 1847A(d)(4) of the Act.
                        15 Section 1927(b)(3)(C)(i) of the Act.




 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                3
I N T R O D          U C T              I O N


                        data for each NDC within 30 days after the close of each quarter. CMS
                        then calculates a volume-weighted ASP for each HCPCS code. This
                        ASP becomes the basis for the payment amount for the following
                        quarter. For example, third-quarter 2009 ASP data from
                        manufacturers were due to CMS 30 days after the end of the third
                        quarter (i.e., October 30, 2009), which CMS used as the basis for
                        first-quarter 2010 Medicare payment amounts. See Table 1 for a
                        description of the reimbursement timeline.
             Table 1: ASP-Based Reimbursement Timeline

                                                                                                                      Quarter in Which
               Manufacturer Sales Period                                          ASP Data Due to CMS              ASP-Based Payment
                                                                                                                      Amount Applied

               First-Quarter 2009                                                                 Apr. 30, 2009      Third-Quarter 2009

               Second-Quarter 2009                                                                July 30, 2009     Fourth-Quarter 2009

               Third-Quarter 2009                                                                 Oct. 30, 2009       First-Quarter 2010

               Fourth-Quarter 2009                                                                Jan. 30, 2010    Second-Quarter 2010
             Source: OIG analysis of ASP-based reimbursement, 2009.

                        The two-quarter lag causes Medicare and its beneficiaries to miss out on
                        immediate savings anytime a drug’s ASP declines, as the payment
                        amount to providers (e.g., physicians and pharmacies) remains at the
                        previous (higher) level for two quarters or more—even though these
                        providers are acquiring the drug at the recently reduced price. This is
                        especially relevant when generic versions of a drug first become
                        available. Typically, when the first-generic 16 version of a drug enters
                        the market, its sales prices are substantially lower than those of the
                        drug’s brand equivalent. Additionally, generic versions often quickly
                        account for the majority of utilization for that drug, overtaking the more
                        expensive brand form. However, because of the two-quarter lag in the
                        ASP calculation, the lower prices and increased utilization of generic
                        versions are not immediately factored into calculations of the Medicare
                        payment amount for the corresponding HCPCS code. Therefore,
                        provider acquisition costs for these drugs will most likely decrease
                        substantially in the first quarter of generic availability, although
                        Medicare payment amounts will take at least two quarters to reflect the
                        change.


                            16 Hereinafter, the term “first generic” will refer to the initial generic version(s) of a drug

                        approved under an Abbreviated New Drug Application (ANDA) as listed by the Food and
                        Drug Administration (FDA) on the First-Time Generic Drug Approvals list. FDA, ANDA
                        (Generic) Drug Approvals. Accessed at http://www.fda.gov on April 27, 2010.


 OEI-03-09-00510        M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                      4
I N T R O D        U C T            I O N


                    FDA’s Generic Approval Process
                    Brand drugs are given patent protection by the U.S. Patent and
                    Trademark Office for a certain period (generally 20 years from the date
                    of filing). 17 Upon approval by FDA, manufacturers are also granted
                    market exclusivity for the drug, which may or may not run concurrently
                    with the patent protection. 18 With certain exceptions, generic drugs
                    cannot be marketed before the brand drug’s patent and market
                    exclusivity expire. 19, 20 Before marketing a generic version of a brand
                    drug, a pharmaceutical company must obtain FDA approval by
                    submitting an ANDA. 21 Generally, a generic drug must be the same as
                    a brand drug with respect to conditions of use (with certain exceptions),
                    active ingredient(s), route of administration, dosage form, strength, and
                    labeling. 22 In addition, with certain exceptions, the generic drug must
                    be bioequivalent to (i.e., perform in the same manner as) the brand
                    drug.

                    Each month, FDA publishes a list of new first-time generic drug
                    approvals (note: the approval of a drug does not mean that it reaches
                    the market). 23 Furthermore, the FDA Approved Drug Products
                    directory (“Drugs@FDA”) provides each drug’s approval history,
                    including whether it was approved under an ANDA, thereby indicating
                    a generic drug. Drugs@FDA is searchable by application number,
                    proprietary drug name, and active ingredient. 24
                    Previous OIG Work
                    A 2008 OIG report identified vulnerabilities in the Part B payment
                    system when the first-generic versions of a prescription drug enter the
                    market. 25 In that report, we estimated that providers paid $51.59 per
                    20 milligrams of irinotecan (a cancer drug that was available in generic


                        17 U.S. Patent and Trademark Office.
                                                           General Information Concerning Patents: Nature
                    of Patent and Patent Rights. Accessed at http://www.uspto.gov on June 7, 2010.
                        18 FDA,      Frequently Asked Questions on Patents and Exclusivity. Accessed at
                    www.fda.gov on July 28, 2010.
                        19 Ibid.
                        20 U.S. Patent and Trademark Office, loc. cit.
                        21 21 CFR § 314.105(d).
                        22 21 U.S.C. § 355(j)(2) (§ 505(j)(2) of the Federal Food, Drug, and Cosmetic Act);
                    21 CFR §§ 314.92 and 314.105(c).
                        23 FDA,      ANDA (Generic) Drug Approvals. Accessed at http://www.fda.gov on
                    April 27, 2010.
                        24 Accessed at http://www.fda.gov on March 26, 2010.
                        25 OIG, Medicare Payment for Irinotecan, OEI-03-08-00310, August 2008.




 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                               5
I N T R O D        U C T            I O N


                    form beginning in February 2008) in the first quarter of 2008. The
                    Medicare payment amount in the same quarter was more than double
                    that amount ($126.31). We found that Medicare expenditures could
                    have been reduced by an estimated $26 million had Medicare
                    reimbursement immediately reflected actual market prices between
                    March and June 2008 (the period in which payment amounts were still
                    fully based on the brand prices).

                    We recommended that CMS explore options (including a possible
                    legislative change) that would allow payment amounts to more
                    accurately reflect new generic prices. CMS concurred with our
                    recommendation and expressed its commitment to ensuring accurate
                    payments for drug products under the ASP methodology, including
                    working with OIG to improve the methods CMS uses to collect data.
                    However, as of May 2010, CMS has not taken any actions to address
                    potential overreimbursement for first generics.


                    METHODOLOGY
                    Data Sources
                    The following data sources were used in our analysis to identify newly
                    available generic drugs, calculate the financial impact of the
                    two-quarter lag, and estimate when high-expenditure brand-only
                    Part B-covered drugs will likely have first-generic versions reach the
                    market.
                    FDA’s monthly list of first-generic drug approvals. Each month, FDA
                    publishes on its Web site a list of first-time generic drug approvals. 26
                    This list contains the drug name, form, strength, and manufacturer of
                    each first-generic drug approved in that month. It does not list the
                    NDCs or HCPCS codes for the newly approved drugs.
                    FDA’s Approved Drug Products directory (“Drugs@FDA”). This FDA
                    directory contains the approval history of all drugs, including approved
                    labels and whether a drug was approved under a New Drug Application
                    or ANDA. 27 It does not list any of this information by NDC or HCPCS
                    code.



                      26 FDA, ANDA (Generic) Drug Approvals. Accessed at http://www.fda.gov on
                    April 27, 2010.
                     27 FDA, FDA Approved Drug Products. Accessed at http://www.fda.gov on
                    March 26, 2010.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                               6
I N T R O D        U C T            I O N


                    FDA staff. We requested information from staff at FDA relating to the
                    generic approval status of certain high-expenditure brand-only drugs
                    covered under Part B.
                    CMS’s quarterly crosswalk file. Each quarter, CMS publishes a file that
                    lists all NDCs that correspond to each HCPCS code for drugs paid under
                    Part B. 28
                    CMS’s quarterly Part B payment-limit file. Each quarter, CMS posts a file
                    containing the payment amount by HCPCS code for drugs paid under
                    Part B. 29
                    CMS’s quarterly ASP background file. CMS provides OIG with the ASP
                    background file each quarter. This file contains ASP data (including the
                    ASP itself and the number of units sold in the quarter) for all NDCs
                    (grouped by their corresponding HCPCS codes) that were reported in
                    that quarter. The data in this file are used to calculate the payment
                    amount for each HCPCS code as listed in the quarterly Part B
                    payment-limit file.
                    CMS’s monthly AMP file. CMS provides OIG with a file containing
                    manufacturer-reported AMP data each month. AMP data 30 are used in
                    the determination of rebates under the Medicaid drug rebate program
                    and are reported by the NDC.
                    CMS’s labeler file. CMS publishes a file that lists each manufacturer
                    with a Medicaid drug rebate agreement, the agreement’s effective date,
                    and the manufacturer’s labeler code (i.e., the first five digits of the
                    NDC). 31
                    CMS’s Part B quarterly utilization data. Quarterly Part B utilization data
                    for prescription drugs are available through CMS’s Part B Extract and
                    Summary System (BESS) and PBAR system. These data provide the


                        28 CMS,       ASP NDC-HCPCS Crosswalk. Accessed at http://www.cms.gov on May 28, 2010.
                        29 CMS,       ASP Pricing File. Accessed at http://www.cms.gov on May 28, 2010.
                        30 Section 6001(b)(1)(A) of the Deficit Reduction Act of 2005 requires manufacturers,
                    beginning January 1, 2007, to report AMPs to CMS on both a monthly and a quarterly
                    basis, with monthly submissions due 30 days after the close of each period. As generally
                    defined in section 1927(k)(1) of the Act, as amended by section 2503(a)(2) of the Patient
                    Protection and Affordable Care Act (ACA), P.L. 111-148, the AMP is the average price paid
                    to manufacturers for drugs in the United States by wholesalers for drugs distributed to
                    retail community pharmacies and by retail community pharmacies that purchase drugs
                    directly from manufacturers.
                      31 CMS, Participating Drug Companies. Accessed at http://www.cms.hhs.gov on
                    April 28, 2010.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                7
I N T R O D        U C T            I O N


                    total units and total amount reimbursed for each HCPCS code during a
                    given quarter or year.
                    Micromedex’s quarterly Red Book file. The Red Book file is an
                    industry-produced compendium containing drug product information
                    and pricing data at the NDC level. OIG receives updated Red Book data
                    each quarter.
                    Manufacturer online press releases. Through manufacturer Web sites and
                    online trade publications, manufacturers periodically announce the
                    launch of recently approved generic drugs.
                    Identification of Newly Available Generic Drugs
                    We consulted FDA’s monthly list of first-generic drug approvals to
                    identify all drugs that had first-generic versions potentially become
                    available in 2007, 2008, or the first two quarters of 2009. 32 We
                    compared this list of drugs to CMS’s Part B crosswalk files to determine
                    which of these first-generic drugs were covered under Part B and
                    reimbursed based on the ASP payment methodology.

                    Because issues such as patent infringement litigation prevent some
                    FDA-approved first generics from becoming available or available
                    immediately after approval, we performed the following additional
                    checks to determine whether Part B drugs on FDA’s list actually
                    reached the market in 2007, 2008, or the first two quarters of 2009:

                    1. We first used CMS’s quarterly ASP background files to determine the
                       number of manufacturers that reported sales of potential
                       first-generic drugs covered under Part B and the drugs’
                       corresponding NDCs. Because manufacturers are required to submit
                       quarterly ASP data to CMS, the background files enabled us to
                       identify the number of manufacturers that sold each drug in each
                       quarter, thereby confirming whether FDA’s first-generic approval
                       date coincided with the market entry of new manufacturers for each
                       drug. However, because previous OIG work 33 found that
                       manufacturers do not always report ASPs in a timely manner, we



                        32 Because there is often a gap between the time when a drug receives FDA approval and

                    when it becomes available on the marketplace, we also included drugs from FDA’s list of
                    generic drugs approved in November and December 2006 if data sources indicated they did
                    not become available until 2007.
                      33 OIG, Average Sales Prices: Manufacturer Reporting and CMS Oversight,
                    OEI-03-08-00480, February 2010.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                               8
I N T R O D        U C T            I O N


                         also took additional steps to identify whether and when a product
                         reached the market.

                    2. We performed similar checks using CMS’s monthly AMP files and
                       Micromedex’s Red Book file to further confirm the date of the first
                       reported sales of each generic drug. By matching the NDCs reported
                       by each generic manufacturer in the ASP background files to the
                       NDCs listed in the AMP files, we were able to determine the first
                       month that generic sales were reported to CMS. The same NDCs
                       were also used to determine the first quarter that generic
                       manufacturers reported product information to Red Book, which
                       served as an additional confirmation of the date of generic market
                       entry.

                    3. As a final check, we reviewed generic manufacturer online press
                       releases announcing the availability of generic drugs to confirm the
                       date of market entrance.

                    This process produced a final list of 16 Part B drugs that had
                    first-generic versions appear on the market in 2007, 2008, or the first
                    two quarters of 2009. 34, 35
                    For some drugs, not all of these data sources mentioned above provided
                    the same date of generic entry. With most discrepancies, we chose the
                    consensus date among most of these data sources. When there was no
                    clear consensus (3 of the 16 drugs), we deferred to the first full month of
                    generic sales listed among all data sources.

                    In some instances, these date discrepancies indicated a failure of
                    manufacturers to report ASPs, as required. For example, comparing
                    NDCs in the quarterly ASP background files to those listed in the


                        34 Our analysis initially identified 18 first-generic drugs. Two drugs (levalbuterol
                    inhalation solution unit dose and levalbuterol inhalation solution concentrate) reached the
                    market, but coding and payment issues created difficulties with any analysis. In general,
                    for much of the review period, Medicare payment amounts for levalbuterol were not based
                    solely on its own ASPs, but also on the ASPs for a different drug (albuterol) as well. The
                    removal of these 2 drugs brought the final number of first generics under review to 16. See
                    the OIG report entitled Beneficiary Utilization of Albuterol and Levalbuterol Under
                    Medicare Part B, OEI-03-07-00440, August 2009, for a full description of the numerous
                    coding and payment changes for levalbuterol since 2003.
                        35 We use the term “drug” here to describe a unique HCPCS code: the final list included
                    16 unique HCPCS codes, representing 14 drug ingredients (granisetron hydrochloride had
                    separate HCPCS codes for injection and tablet forms, and dronabinol oral had separate
                    HCPCS codes for 2.5 mg and 5 mg), but because each HCPCS code has its own Part B
                    payment amount, we considered the total list of first generics to include 16 drugs.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                  9
I N T R O D        U C T            I O N


                    monthly AMP files enabled us to determine whether generic
                    manufacturers were late to report ASPs. In such cases, we used the
                    CMS labeler files to determine whether those manufacturers had a
                    Medicaid drug rebate agreement (and thus were required to submit
                    ASPs). See Appendix A for a detailed description of our methodology for
                    identifying first generics.
                    Financial Impact of the Two-Quarter Lag During Initial Generic Availability
                    To determine the financial impact of the reimbursement lag for the
                    16 newly available generic drugs, we first calculated the effect the lag
                    had on payment amounts in each quarter. We did this by comparing
                    the Part B payment amount from CMS’s payment-limit file in the
                    quarter under review to the payment amount from two quarters later.
                    Because the payment amount from two quarters later was based on
                    sales that occurred during the quarter under review, it served as an
                    estimate of what the payment amount would have been had there been
                    no lag. To determine the amount spending would have decreased had
                    this payment amount been in effect, we (1) calculated the percentage
                    difference between the payment amount during the quarter under
                    review and the payment amount from two quarters later and
                    (2) multiplied the percentage difference by the total amount reimbursed
                    in that quarter. 36
                    We performed this analysis during the initial generic availability period
                    of each drug; i.e., the quarter in which generics were first available in
                    the market, as well as the subsequent two quarters—yielding three
                    quarters of analysis for each drug. 37 Although payment amounts are
                    always based on ASPs from two quarters previous, the initial effects of
                    the lag often extend into the third quarter of generic availability. For
                    example, if a first generic did not become available until the middle of a
                    quarter (e.g., February 15, 2008), the volume-weighted ASP for that
                    quarter (first-quarter 2008) will not reflect a full period of sales of
                    generic versions—and consequently, the drug’s Medicare payment
                    amount in third-quarter 2008 will only reflect partial generic sales. As
                    a result, the effects of the reimbursement lag will still be felt in the
                    third quarter of 2008 (i.e., the third quarter of generic availability). By



                      36 We obtained utilization data from BESS and PBAR for each quarter and drug under
                    review.
                      37 For the purpose of this analysis, a two-quarter reimbursement lag is assumed for all
                    newly available generic drugs.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                10
I N T R O D        U C T            I O N


                    including the third quarter of generic availability in our financial
                    impact analysis, we were able to account for these extended effects.

                    In instances in which a first generic was approved after the first month
                    of a quarter (and therefore was available for only a portion of the
                    quarter), we used proportional utilization data to reflect the amount of
                    time the generics were available in that quarter.38
                    Once we estimated the financial impact for each drug, we totaled these
                    figures to determine the net financial impact of the two-quarter
                    reimbursement lag on Part B and its beneficiaries for the 16 drugs over
                    their initial periods of generic availability. We compared the total
                    potential savings to the total amount reimbursed for all drugs over the
                    same period and determined the proportion of potentially excessive
                    expenditures resulting from the two-quarter lag.
                    Comparison of generic and brand ASPs. The volume-weighted ASP for a
                    HCPCS code is calculated using the individual ASPs for all
                    corresponding NDCs. Within each HCPCS code, the ASPs for the brand
                    and any generic NDCs often vary considerably (even though the
                    Medicare payment amount is the same for all NDCs under a HCPCS
                    code). To highlight the difference between generic-only and brand-only
                    ASPs when a generic version first becomes available, we used CMS’s
                    background files to separately calculate the volume-weighted ASP of
                    generic and brand versions of each drug in the first quarter in which the
                    generics were available. 39
                    Analysis of payment levels beyond the period of initial generic availability.
                    Even after generics become fully accounted for in the Medicare payment
                    amount (i.e., after the period of initial generic availability), the
                    two-quarter lag may still have a negative effect if market prices
                    continue to fall. Therefore, in addition to quantifying the financial
                    impact of the two-quarter lag during the period of initial generic
                    availability, we also tracked Medicare payment amounts for the
                    16 drugs for up to 2 years 40 after their first-generic versions became
                    available. To do so, we compared the Medicare payment amounts
                    during the quarter before generics became available to the payment



                        38 CMS’s AMP files allowed us to determine the first month of generic availability.
                        39 Data were unavailable for two drugs.
                      40 Because three drugs did not reach the market until first- or second-quarter 2009,
                    payment amounts for these drugs were not available for the full 2 years.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                               11
I N T R O D        U C T            I O N


                    amounts 2 years later. 41 By comparing the Medicare payment amounts
                    before and after generic sales were reflected in the volume-weighted
                    ASPs, we were able to illustrate the long-term effect of generics on
                    Medicare payment amounts as well as how the two-quarter lag may
                    continue to affect payment after the period of initial generic availability.
                    Identification of Future First-Generic Drugs
                    We provided FDA with a list of the top 48 brand-only drugs (by
                    Medicare expenditure) covered under Part B and requested an estimate
                    of when each drug was likely to have first-generic versions receive
                    approval. 42 To compile the list, we researched the top dollar-volume
                    drugs covered under Part B in 2008 to determine which drugs were
                    available only in brand form. 43 FDA provided the estimated date of
                    generic approval for each brand drug based on when an ANDA could
                    first be approved.
                    Limitations
                    Our analysis was based on data provided by FDA and CMS, and we did
                    not verify the data’s accuracy or completeness. Additionally, FDA’s
                    generic approval timeline for brand drugs was based only on the
                    estimated date of possible ANDA approval and did not take into account
                    other factors (e.g., patent litigation) that may affect the date of actual
                    market entry.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




                        41 The 2 years varied for each drug, but our analysis did not extend beyond
                    second-quarter 2010.
                        42 Originally, we provided FDA with a list of 50 brand-only drugs. We removed two
                    drugs from this list after we determined that first-generic versions had been approved by
                    FDA. In the case of mycophenolate mofetil, our data sources contained no evidence at the
                    time we originally contacted FDA that generics had reached the market (although they
                    subsequently did during the period covered by our review). In the case of budesonide,
                    first-generic versions had been approved and had briefly reached the market; however, as
                    the result of patent litigation, no generic versions remained on the market during the period
                    covered by our analysis. This brought the final list to 48 brand-only drugs.
                      43 We used CMS’s background files, manufacturer Web sites, and FDA’s list of generic
                    drug approvals to determine whether a drug was brand-only or available in generic form.



 OEI-03-09-00510    M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                               12
    F I N D I N G S

                                                             Had there been no two-quarter
       Medicare could have saved an estimated
                                                             reimbursement lag during the
$111 million had payment amounts immediately                 period of initial generic
     reflected generic sales prices for 16 drugs             availability 44 for 16 drugs, we
                                                             estimate that Medicare and its
                   beneficiaries could have saved $111 million. 45, 46 The potential savings
                   accounted for 25 percent of Part B expenditures for these drugs in their
                   period of initial generic availability. Three drugs 47 each had an
                   estimated $20 million or more in total potential savings over the course
                   of the three quarters under review. See Appendix B for a list of each
                   drug’s potential savings.
                   Because of cost-sharing obligations, Medicare beneficiaries also
                   experience the financial effect of the reimbursement lag. For example,
                   when the oral version of the antiemetic drug granisetron first became
                   available in generic form in first-quarter 2008, providers who purchased
                   the generic version paid, on average, $12.89 per milligram (mg). 48 The
                   Medicare payment amount that quarter ($50.22 per mg), however, was
                   based only on brand versions. As a result, the 20-percent beneficiary
                   coinsurance at this time ($10.04 per mg) was only slightly less than the
                   entire acquisition cost of the generic drug.
                   Because of the reimbursement lag, it may take years for Medicare to
                   realize the full savings of generic versions
                   The negative effects of the reimbursement lag are not necessarily
                   limited to the first three quarters of generic availability. Medicare
                   payment amounts will exceed actual market prices anytime ASPs
                   decline. Therefore, when ASPs for a drug with new generic versions


                     44 The period of initial generic availability is defined as the first three quarters generic

                   versions were available.
                      45 Savings estimates for each drug were based on three quarters of analysis (i.e., the
                   period of initial generic availability), but because the 16 drugs became available in generic
                   form at different times, the three quarters under review varied from drug to drug.
                     46 Because generic manufacturers for two of the drugs in our analysis did not report any
                   ASPs, we could not calculate the financial impact of new generic versions of these two
                   drugs.
                       47 These drugs were mycophenolate mofetil oral, albuterol sulfate/ipratropium bromide
                   inhalation solution, and irinotecan injection. Irinotecan may be atypical in that numerous
                   generic manufacturers, rather than one generic manufacturer, reported sales in the period
                   of initial generic availability.
                     48 The volume-weighted ASP for all versions in the HCPCS code was actually $16.20 per
                   mg, because some providers at that point were still dispensing the brand version of the
                   drug.



 OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                    13
F   I N D I N G        S


                      continue to fall (possibly because of increasing utilization of generic
                      versions or more generic versions reaching the market), the two-quarter
                      lag has an extended impact because the Medicare payment amount is
                      always slow to reflect the continuously decreasing ASP.

                      For example, Figure 1 shows the Medicare payment amounts for the
                      antiemetic drug ondansetron hydrochloride over a 2-year period
                      beginning in the first quarter of 2007. During the period of initial
                      generic availability (i.e., first-quarter 2007 through third-quarter 2007),
                      the Medicare payment amount for ondansetron hydrochloride declined
                      by 32 percent. The payment amount continued to decrease each
                      subsequent quarter through the third quarter of 2008, when it was
                      91 percent less than the payment amount in the first quarter generics
                      were available.
                       Figure 1: Medicare Payment Amounts and ASPs for Ondansetron
                       Hydrochloride (Oral, 8-mg Version)

                                 $40.00

                                 $35.00

                                 $30.00

                                 $25.00
                                                                                                                               Payment amount
                                 $20.00
                                                                                                                               ASP + 6 percent
                                 $15.00

                                 $10.00

                                   $5.00

                                   $0.00
                                                                      *




                                                                                                        08


                                                                                                                   08


                                                                                                                          08
                                                         07




                                                                                07


                                                                                            08
                                               )




                                                                    07
                                              s
                                           ric


                                                       2Q




                                                                              4Q


                                                                                          1Q


                                                                                                      2Q


                                                                                                                 3Q


                                                                                                                        4Q
                                                                  3Q
                                         e
                                       en
                                     tG
                                   rs
                                   i
                                (F
                            07
                          1Q




                       Source: CMS’s posted Part B payment limits.
                      * Represents the first quarter in which generic sales were reflected in the payment amount.

                      Overall, Medicare payment amounts steadily decreased throughout the
                      first 2 years of generic availability for the drugs under review. On
                      average, after 2 years, the payment amounts were nearly 60 percent
                      less than the original brand-only payment amounts. 49 Because our

                        49 Two full years of data were available for 13 drugs only; 2 of these 13 drugs were
                      removed from the savings analysis because generic manufacturers did not report any ASPs.



    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                        14
F   I N D I N G        S


                      savings analysis included only the first three quarters of each drug’s
                      generic availability, but the decline in payment amounts continued for
                      up to 2 years, the potential savings of $111 million underestimate the
                      total potential savings that would result if the two-quarter lag were
                      eliminated. See Appendix C for a full list of payment amounts for each
                      drug over a 2-year period.
                      On average, brand drugs were initially 3 times more expensive than their
                      generic versions
                      During the first quarter of generic availability for each drug, the brand
                      versions’ ASPs were, on average, 2.85 times that of their generic
                      equivalents. 50 For 1 drug, the brand ASP was over 10 times that of the
                      generic equivalent in the same quarter.

                      For three drugs in our analysis, brand versions were priced lower than
                      their generic equivalents in the first quarter of generic availability.
                      However, the payment amounts for all three drugs still showed gradual
                      declines, resulting in potential savings for each. For example, in the
                      first quarter of generic availability, the volume-weighted ASP for brand
                      sumatriptan was over 17 percent lower than that of the generic
                      versions. By two quarters later, however, the generic ASP had dropped
                      59 percent and the brand ASP had dropped 23 percent, resulting in a
                      decrease in overall volume-weighted ASP of 47 percent. This reflected
                      an overall trend in our analysis, as the entry of first-generic versions
                      resulted in a decline in prices over time, whether because of the
                      emergence of lower-priced generics or the lowering of brand prices.



According to FDA, numerous high-expenditure                  According to FDA, 26 of the
                                                             48 brand-only drugs with the
      drugs could have first-generic versions
                                                             highest Part B expenditures have
            approved in the next several years
                                                             had or may have generic versions
                      approved for the first time in the next several years. Generic versions of
                      these 26 drugs are expected to gain approval in gradually increasing
                      numbers through 2014. 51 These 26 brand drugs had combined Part B
                      expenditures of over $2.8 billion and accounted for 25 percent of Part B


                          50 Data were available for 12 drugs only.
                          51 Specifically, 4 of the 26 drugs have become generic since our review began; 4 drugs are
                      currently eligible for generic approval; an additional 3 drugs may become generic beginning
                      in 2011; 13 drugs may become generic beginning in 2012; 1 drug may become generic
                      beginning in 2013; and 1 drug may become generic beginning in 2014.



    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 15
F   I N D I N G        S


                      drug payments in 2009. If and when these 26 drugs become available in
                      generic form, their payment amounts will be subject to the same two-
                      quarter lag that exists under the ASP-based system.

                      FDA could not provide exact dates for the expected generic approval of
                      these drugs. Instead, it gave an estimate of the earliest possible date of
                      ANDA approval. The date of actual market entry may differ from this
                      estimate, as external factors, such as patent litigation, may prolong the
                      introduction of generic versions beyond the date of ANDA approval. See
                      Appendix D for a list of these 26 brand-only Part B-covered drugs and
                      their FDA-estimated generic approval times.
                      Nearly half of the current high-dollar brand-only Part B drugs are biologics;
                      the ACA recently created a pathway for generic approval of biological
                      products
                      The remaining 22 of the top 48 brand-only Part B-covered drugs are
                      biologics, including the 7 Part B drugs with the highest Medicare
                      expenditures in 2009. Prior to the passage of the ACA, no pathway
                      existed for the approval of generic versions of biologics; however, section
                      7002 of the ACA provides for approval of biosimilars (i.e., generic
                      biologics). As a result, generic forms of these 22 drugs may gain
                      approval in the future. 52 In 2009, these 22 biologics accounted for over
                      $5.3 billion in Part B spending. See Appendix E for a list of the top 22
                      biologics under Part B.


                                                            Because of issues such as patent
      Significant obstacles remain in proactively
                                                            litigation and marketing
       identifying newly available generic drugs
                                                            agreements, the date of FDA’s
                      approval of generic versions often does not coincide with the date of
                      actual generic market entry. In fact, 3 of the 16 generic drugs in our
                      analysis did not reach the market until at least 6 months after FDA’s
                      date of generic approval. See Appendix F for a comparison of the dates
                      of ANDA approvals and the dates of actual generic entry.
                      Two additional drugs not included in our analysis (gemcitabine and
                      torsemide) were listed by FDA as having had first-generic versions
                      approved during our timeframe (i.e., between first-quarter 2007 and


                          52 Because of barriers to market entry, the complexities of manufacturing these products,

                      and a slightly different payment methodology, biologics may not show the same degree of
                      decline in payment amounts when generic versions reach the market, compared to the
                      drugs identified in this report.



    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 16
F   I N D I N G        S


                      second-quarter 2009), but no generic versions appeared to have reached
                      the market as of the fourth quarter of 2009. 53 In the case of another
                      drug (budesonide), generic versions were approved by FDA and reached
                      the market for a few days, but as a result of patent litigation, generic
                      versions ceased being marketed during the period under review. 54
                      These issues highlight the complications in predicting when generic
                      versions are likely to become available, making it difficult to anticipate
                      changes in ASPs.
                      For a number of drugs, generic manufacturers were late to report ASPs or
                      did not report ASPs at all
                      The first-generic ASPs for two drugs (albuterol sulfate/ipratropium
                      bromide inhalation solution and fomepizole injection) were reported one
                      quarter after the actual generic entry date (see Table 2). 55 Generic
                      manufacturers for two other drugs never reported ASPs to CMS, despite
                      the drugs’ becoming available in generic form. 56
                      All four drugs with late or unreported generic ASPs were sold by generic
                      manufacturers that had Medicaid drug rebate agreements with CMS at
                      the time of their market entry and were required to report ASPs in the
                      first quarter in which sales occurred. In instances in which ASPs are
                      reported a quarter late or not at all, the Medicare payment amounts
                      take even longer to reflect sales of generics. Had the manufacturers of
                      these newly available generic drugs reported ASPs in a timely fashion,
                      the potential savings to Part B identified in our analysis could have
                      been even greater.




                        53 Research into CMS’s background files and manufacturer press releases yielded no

                      evidence of generic versions.
                        54 In 2009, Medicare and its beneficiaries paid $265 million for budesonide. According to
                      the settlement agreement with a generic manufacturer, generic budesonide was allowed to
                      be marketed again starting on December 15, 2009. Accessed at http://www.tevapharm.com
                      on July 1, 2010.
                          55 The manufacturer-reported ASPs for these drugs were determined to have been
                      submitted late based on the fact that generic manufacturers reported NDCs in the monthly
                      AMP files in the quarter before ASPs were reported in the background files for those same
                      NDCs.
                        56 No generic ASPs were reported as of the fourth quarter of 2009. We will refer the
                      manufacturers of these two drugs to CMS and work with the agency to undertake
                      appropriate action.



    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 17
F   I N D I N G               S


                Table 2: First Generics With ASP Reporting Issues
                                                                                                                                           Period Covered
                                                                                     FDA Generic                  Estimated Actual
                 HCPCS                                                Drug                                                                by First Reported
                                                                                    Approval Date                Generic Entry Date                       1
                                                                                                                                              Generic ASP

                                             Albuterol sulfate/
                 J7620          ipratropium bromide inh. soln.                        Dec. 21, 2006                     July–Sept. 2007            4Q 2007

                 J1451                                Fomepizole inj.                 Dec. 14, 2007                          Jan. 2008             2Q 2008
                         2                                                                                                                                    3
                 Q0167                   Dronabinol oral, 2.5 mg                     June 27, 2008                            July 2008       (none listed)
                         2                                                                                                                                    3
                 Q0168                      Dronabinol oral, 5 mg                    June 27, 2008                            July 2008       (none listed)
                Source: FDA's ANDA (Generic) Drug Approvals and OIG analysis.
                1
                  Based on the first appearance of generic manufacturer NDC(s) in the ASP background file. See Appendix A for a
                  description of this analysis.
                2
                  These drugs were not included in our potential savings analysis.
                3
                  No generic ASPs were reported as of fourth-quarter 2009.




    OEI-03-09-00510          M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                                        18
R   E C O        M M E N D A T                         I O N               S
       R E C O M M E N D A T I O N



                      This is the second OIG report to identify systemic vulnerabilities in
                      Part B payments for prescription drugs as a result of the two-quarter
                      lag in reimbursement. We found that payment amounts were
                      significantly higher than market prices for an extended period for the
                      newly available generic drugs under review. In other words, during the
                      period of initial generic availability, generic versions of these drugs
                      were being administered or dispensed to beneficiaries, but Medicare
                      was still paying the brand prices.

                      Although other government and privately sponsored prescription drug
                      programs are designed to take advantage of lower priced generic drugs
                      (e.g., mandatory generic substitution policies), our findings demonstrate
                      that the Part B reimbursement system fails to capture these potential
                      savings for at least two quarters. CMS has expressed interest in
                      exploring options to improve its reimbursement process, but it has yet
                      to make specific changes. With more than half of the top dollar-volume
                      brand drugs covered under Part B potentially gaining approval in
                      generic form over the next 4 years, and the creation under the ACA of a
                      new approval pathway for generic biologics, this vulnerability will likely
                      continue to grow if CMS does not make changes to its Part B payment
                      system.

                      We therefore recommend that:

                      CMS work with Congress to require manufacturers of first generics to
                      submit monthly ASP data during the period of initial generic availability
                      If generic manufacturers were required to submit ASP data by the end
                      of each month during the period of initial generic availability, CMS
                      could develop a more appropriate drug payment amount that reflects
                      those generic sales, and set that payment amount for the following
                      quarter. This would substantially reduce the two-quarter lag and would
                      make payment amounts more reflective of actual market prices for
                      newly available generic drugs, thereby taking advantage of their lower
                      prices. CMS could also apply the requirement to manufacturers of
                      generic biologics, once these products begin to be approved.

                      Our findings also demonstrate that the vulnerability posed by the
                      two-quarter lag is not limited to periods of initial generic availability, as
                      Medicare payment amounts will exceed actual market sales any time
                      ASPs decline. Therefore, if CMS finds that the implementation of a
                      monthly ASP reporting requirement for first generics helps alleviate the
                      financial impact of the two-quarter lag, the agency may wish to consider

    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 19
R   E C O        M M E N D A T                         I O N


                      transitioning to a monthly ASP reporting system for all Part B-covered
                      drugs.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS did not concur with our recommendation. CMS stated that
                      requiring manufacturers to submit monthly ASP data would not be
                      feasible for either manufacturers or CMS, and the agency cited the high
                      rates of manufacturer price restatements for monthly AMPs (in contrast
                      to quarterly ASPs) as evidence of the administrative burden of monthly
                      reporting on manufacturers. CMS noted that OIG had identified a
                      number of manufacturers that failed to submit quarterly ASP data, as
                      required, and that this problem could be exacerbated by monthly
                      reporting requirements. The agency recommended that OIG contact
                      these manufacturers to determine why ASPs were not reported and
                      whether any penalties are warranted. CMS went on to state that it is
                      developing a process to identify manufacturers that do not submit
                      quarterly ASPs in a timely manner, and then refer these manufacturers
                      to OIG when appropriate.

                      CMS also supported the two-quarter lag from a policy perspective,
                      stating that (1) the lag protects Medicare and its beneficiaries from
                      unchecked price increases, as manufacturers may limit raising prices
                      based on their awareness of potential provider reimbursement issues,
                      and (2) the lag leads to the more rapid utilization of generics, as
                      providers have an incentive to quickly switch to lower-priced versions
                      during the limited period when the payment spread is at its highest.
                      CMS also described methods that the agency had considered to lessen
                      the two-quarter lag, and it contended that any policy implementing
                      these approaches would be technically infeasible or lead to more
                      inaccurate and unstable payment rates.

                      Although the administrative feasibility and compliance burden of any
                      new reporting requirements should be taken into account, OIG believes
                      that the cost savings for Medicare and its beneficiaries that would be
                      achieved by reducing the current reimbursement lag may outweigh any
                      potential issues for CMS and manufacturers. Regarding the latter, OIG
                      is working closely with CMS to improve compliance with price-reporting
                      requirements and recently issued an advisory bulletin notifying
                      manufacturers of a new OIG enforcement initiative that addresses late



    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 20
R   E C O        M M E N D A T                         I O N


                      and missing data. As part of this initiative, OIG will consider pursuing
                      penalties for manufacturers that fail to report ASPs.

                      Furthermore, we do not believe the best protection against price
                      inflation should be a reimbursement system that is slow to reflect
                      market trends, or that the best encouragement for generic substitution
                      is one that causes Medicare and its beneficiaries to pay substantially
                      more than provider costs. Rather, the nature of the volume-weighted
                      ASP-based reimbursement system itself (in which all NDCs assigned to
                      one HCPCS code are paid at the same amount) is an incentive for
                      manufacturers to limit rapid price increases, as well as for providers to
                      utilize generic versions. Yet, because of the two-quarter lag, Part B and
                      its beneficiaries are denied significant potential savings when these
                      generic versions first become available. Although we appreciate CMS’s
                      consideration of alternative price reporting timelines, we note that the
                      methods outlined by CMS in its comments are not the only possible
                      approaches. Therefore, the agency’s conclusions about feasibility and
                      price stability may not apply to other methods that could be used to
                      reduce the reimbursement lag.

                      CMS also expressed concerns with our savings estimate. The agency
                      stated that:

                            it is not clear from the report that the potential savings of
                             $111 million are not annualized savings;

                            almost 95 percent of our estimated savings are attributable to three
                             drugs, and therefore not representative of Part B pricing trends
                             overall;

                            the savings estimate of $111 million assumes that the lag would be
                             completely eliminated, which is administratively impossible; and

                            OIG’s finding regarding the future availability of generic biologics
                             implies significant potential savings; however, it is uncertain that
                             the two-quarter lag would cause payment gaps for these particular
                             products.

                      As we state in both the methodology and findings sections of the report,
                      our overall savings estimate is not intended to be an annualized figure;
                      rather the $111 million represents the estimated savings had there been
                      no two-quarter lag during the period of initial generic availability
                      (i.e., up to three quarters) for 16 drugs. Because our findings show that
                      the ASPs for these drugs continued to drop beyond the three quarters of
                      analysis, our estimated savings likely would have been significantly

    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 21
R   E C O        M M E N D A T                         I O N


                      greater had we calculated the total cost of the two-quarter lag for the
                      entire period from January 2007 to June 2009.

                      In addition, CMS is correct that three drugs account for the vast
                      majority of the $111 million in potential savings. However, we disagree
                      that this means that our results are not representative. In 2009,
                      64 HCPCS codes accounted for 90 percent of the $11 billion in
                      expenditures for Part B drugs, with only 13 of these codes representing
                      the majority (52 percent) of spending. Therefore, it follows that our
                      estimates would be largely driven by the savings attributable to the few
                      high-dollar drugs that had new generic versions become available
                      during the period under review. Our findings also illustrate that this
                      trend is likely to continue, as 26 brand drugs representing over
                      $2.8 billion and 25 percent of Part B spending may become generic in
                      the next several years.

                      Furthermore, we realize that it may be impossible to completely
                      eliminate the reimbursement lag, and that our savings estimate
                      presents a best-case scenario. However, given the high cost and
                      substantial expenditures for many Part B drugs, any reduction in the
                      two-quarter lag would lead to significant savings to the program and to
                      Medicare beneficiaries in the form of reduced coinsurance.

                      Finally, even though the two-quarter lag may or may not affect generic
                      biologics in the same manner as other Part B drugs, the fact that
                      Medicare and its beneficiaries spent $5.3 billion on just 22 biologic
                      products in 2009 means that any delay in taking advantage of even
                      slightly less expensive generic versions would have a profound impact
                      on the program and its beneficiaries.

                      For the full text of CMS’s comments, see Appendix G.




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 22
      A P P E N D I X ~ A

          Detailed Methodology for Identifying First-Generic Drugs and
          Their Dates of Market Entry

                  1. The Food and Drug Administration’s (FDA) monthly list of first-generic drug
                     approvals. We first compiled a list of all drugs listed under FDA’s
                     first-generic drug approvals for all months between January 2007
                     and June 2009. Because we were interested in identifying drugs
                     which became available within our timeframe, we also included
                     drugs in this analysis that were approved within 2 months before our
                     timeframe (i.e., November 2006) in case any of those drugs actually
                     hit the market starting in January 2007. The FDA list provided the
                     drug name, form, strength, and manufacturer but did not list the
                     Healthcare Common Procedure Coding System (HCPCS) code of each
                     drug. Therefore, we had to search the Centers for Medicare &
                     Medicaid Services’ (CMS) crosswalk files by drug name to identify
                     the drug’s HCPCS code and to determine whether the FDA-listed
                     drug was covered under Part B. If a drug name listed by FDA did
                     not clearly match that in the crosswalk file, we did not include it in
                     the analysis.

                  2. CMS’s quarterly background files. Once we had determined each drug’s
                     HCPCS code, we searched the background files by HCPCS code to
                     identify all manufacturers that reported average sales prices (ASP)
                     for each drug in all quarters in our analysis. Because the first five
                     digits of a national drug code (NDC) denote the manufacturer, we
                     were able to use the NDCs listed in the background files to identify
                     the number of unique manufacturers per drug. We then ran this list
                     of NDCs against the Red Book to exclude any NDCs that the Red
                     Book identified as repackagers. We also excluded any NDCs that
                     CMS had flagged in the background file as being problematic or
                     excluded from the ASP calculation in that quarter. Once we repeated
                     this process in each quarter, we were able to see when a drug went
                     from one manufacturer to multiple manufacturers, thereby
                     indicating the entry of generic versions. The background file also
                     lists a variable to denote whether the drug is a brand or generic
                     version, and this was used as an additional check to confirm that the
                     new manufacturer was marketing a generic version rather than a
                     competing brand version.

                  3. CMS’s monthly average manufacturer price (AMP) files. We used the
                     monthly AMP files to confirm the date of first-generic entry. Because
                     the AMP files list only NDCs and not HCPCS codes, we had to rely


OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                             23
A   P   P E N D       I X            ~          A


                            on the NDCs listed in the background files to identify NDCs in the
                            AMP files.

                      4. Red Book. We repeated the same process used in the AMP analysis
                         to identify the earliest appearance of an NDC in the Red Book.

                      5. Manufacturer press releases. We researched manufacturer press
                         releases and Web sites to confirm generic drug NDCs and dates of
                         market entry.

                      There were often discrepancies in the dates of generic entry given by the
                      above data sources. In most instances of discrepancies, we chose the
                      consensus when most of these data sources were in agreement on the
                      date of market entry. When the background file was the only data
                      source to report a different date, we took this to mean that the
                      manufacturer was late to report ASPs in the background file. In
                      instances in which there was no clear consensus (3 of the 16 drugs), we
                      deferred to the earliest listed generic market entry date among all data
                      sources. For example, if a drug was listed in the background files
                      starting in first-quarter 2008 but was not listed in the AMP files until
                      May 2008, we assumed the date of generic market entry was the first
                      quarter of 2008. If it was not clear whether a drug had first-generic
                      versions become available within our timeframe, it was not included in
                      the analysis. We also excluded from our savings analysis drugs from
                      manufacturers that failed to report any generic NDCs in the
                      background files.




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 24
                      A P P E N D I X ~ B




Table B-1: First-Generic Drugs Included in Our Analysis
                                                                                                       Part B Expenditures During                   Potential Savings During
 HCPCS                                               Brand                 First Generic
                          Drug Name                                                     1              the Three Quarters of Initial                    the Three Quarters of
 Code                                                Name                    Entry Date                                            2
                                                                                                              Generic Availability                 Initial Generic Availability

                     Amifostine, inj.,
 J0207           500 milligrams (mg)                 Ethyol                      May 2008                                             $8,479,381                   $1,364,634

                        Cefepime inj.,
 J0692                        500 mg            Maxipime             Jan.–Mar. 2008                                                    $567,286                       $48,719

                    Epoprostenol inj.,
 J1325                       0.5 mg                   Flolan                     May 2008                                         $19,576,492                         $66,109

                      Fomepizole inj.,
 J1451                        15 mg                  Antizol                     Jan. 2008                                                  $23                            -$2

                      Granisetron inj.,
 J1626                         0.1 mg                  Kytril                    Jan. 2008                                        $13,040,208                      $1,816,964

                        Sumatriptan
 J3030           Succinate inj., 6 mg                Imitrex                     Feb. 2009                                                 $957                            $75
                    Mycophenolate
                        Mofetil oral,
 J7517                       250 mg                Cellcept                      May 2009                                       $132,035,240                      $28,958,160
                   Albuterol Sulfate/
                         Ipratropium
                  Bromide inh. soln.,
 J7620                2.5 mg/0.5 mg                Duoneb            July–Sept. 2007                                            $165,624,799                      $32,073,194

                        Irinotecan inj.,
 J9206                          20 mg         Camptosar                          Mar. 2008                                        $90,705,689                     $44,131,109

                       Melphalan inj.,
 J9245                        50 mg                Alkeran                    June 2009                                                $277,347                        $9,909

                      Pentostatin inj.,
 J9268                        10 mg                  Nipent                   Aug. 2007                                               $3,915,369                     $273,111

                     Granisetron oral,
 Q0166                          1 mg                   Kytril                    Jan. 2008                                             $649,379                      $375,497

                   Ondansetron oral,
 Q0179                        8 mg                   Zofran          Jan.–Mar. 2007                                                   $4,296,612                   $1,859,387

                    Fosphenytoin inj.,
 Q2009                        50 mg               Cerebyx                     Aug. 2007                                                     $61                            $48

                      Dronabinol oral,
         3
 Q0167                        2.5 mg                Marinol                      July 2008                                                 (n/a)                          (n/a)

                      Dronabinol oral,
         3
 Q0168                          5 mg                Marinol                      July 2008                                                 (n/a)                          (n/a)

         Total                                                                                                                  $439,168,842                    $110,976,913
Source: Office of Inspector General analysis of newly available generic drugs, 2009.
1
  For some drugs, we could not determine from the available data the specific month in which generics first became available. For these drugs, we
  provided the first quarter of generic availability (e.g., January–March 2008).
2
  Part B Analytics Reporting (98 percent of claims reported). Accessed on March 25, 2010.
3
  Generic manufacturers for these two drugs did not report any average sales prices and were therefore not included in our savings analysis.




              OEI-03-09-00510              M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                                                         25
                        A P P E N D I X ~ C



Table C-1: Medicare Payment Amounts for 16 Newly Available Generic Drugs
                              J0207             J0692                  J1325                    J1451                   J1626                J3030          J7517           J7620
    Quarter                         1
                          (2Q 2008)          (1Q 2008)              (2Q 2008)                (1Q 2008)               (1Q 2008)            (1Q 2009)      (2Q 2009)       (3Q 2007)

    Q0
    (Brand Only)
    Payment
    Amount                  $496.281              $8.026               $14.526                  $12.924                   $5.792           $72.575          $3.190          $1.148
    Q1
    (First Generic
    Reaches Market)
    Payment
    Amount                  $511.217              $5.718               $14.362                  $13.731                   $4.721           $74.704          $3.436          $1.105

    Q2 Payment
    Amount                  $511.316              $6.749               $14.368                  $14.115                   $6.046           $84.495          $3.441          $1.079

    Q3 Payment
          2
    Amount                  $424.029              $5.711               $14.332                  $14.804                   $5.341           $82.659          $2.494          $0.805

    Q4 Payment
          3
    Amount                  $386.293              $5.721               $14.355                  $11.850                   $4.329           $56.559          $2.600          $0.830

    Q5 Payment
    Amount                  $373.298              $5.249               $14.218                  $11.412                   $4.053           $43.545          $1.884          $0.581

    Q6 Payment                                                                                                                                                (data
    Amount                  $367.756              $4.589               $14.101                  $10.100                   $3.292           $46.678     unavailable)         $0.307

    Q7 Payment                                                                                                                                 (data          (data
    Amount                  $356.806              $4.417               $14.023                    $8.753                  $2.344        unavailable)   unavailable)         $0.273

    Q8 Payment                                                                                                                                 (data          (data
    Amount                  $340.108              $3.781               $14.032                    $8.146                  $2.004        unavailable)   unavailable)         $0.243
1
  Quarter and year in parenthesis denote the first quarter in which generics were available.                                                                  (continued on next page)
2
  Q3 refers to the quarter in which the Medicare payment amount begins to reflect sales of the first generic(s).
3
  Q4 refers to the quarter in which the Medicare payment amount fully reflects sales of the first generic(s).




                OEI-03-09-00510              M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                                                           26
            A    P    P E N D              I X              ~          C




Table C-1: Medicare Payment Amounts for 16 Newly Available Generic Drugs (Continued)
                                                                                                                                                            2           2
                              J9206             J9245                  J9268                    Q0166                   Q0179              Q2009      Q0167       Q0168
 Quarter                            1
                          (1Q 2008)          (2Q 2009)              (3Q 2007)                (1Q 2008)               (1Q 2007)          (3Q 2007)   (3Q 2008)   (3Q 2008)

 Q0
 (Brand Only)
 Payment
 Amount                     $125.800        $1,624.598            $1,934.913                    $50.436                 $36.064           $5.555      $5.415     $10.835
 Q1
 (First Generic
 Reaches Market)
 Payment
 Amount                     $126.309        $1,624.598            $1,977.801                    $50.224                 $36.829           $5.795      $5.387     $11.711

 Q2 Payment
 Amount                     $126.235        $1,624.598            $2,071.219                    $46.955                 $36.550           $5.813      $5.876     $11.838

 Q3 Payment
       3
 Amount                      $74.753        $1,654.023            $1,858.684                    $17.173                 $25.029           $3.595      $5.822     $11.508

 Q4 Payment
       4
 Amount                      $36.997        $1,549.472            $1,828.915                    $17.877                 $18.543           $0.817      $5.824     $11.676

 Q5 Payment
 Amount                      $21.715        $1,500.321            $1,741.579                    $16.583                   $9.169          $1.217      $6.799     $13.515

 Q6 Payment                                       (data
 Amount                      $18.296       unavailable)           $1,622.651                      $9.244                  $4.604          $0.728      $6.795     $13.567

 Q7 Payment                                       (data
 Amount                      $14.955       unavailable)           $1,601.255                      $5.261                  $3.160          $0.607      $6.809     $13.604

 Q8 Payment                                       (data
 Amount                      $13.433       unavailable)           $1,447.688                      $7.082                  $3.938          $0.617      $7.169     $14.165
Source: Centers for Medicare & Medicaid Services’ posted Part B payment limits.
1
  Quarter and year in parenthesis denote the first quarter in which generics were available.
2
  Not included in our savings analysis.
3
  Q3 refers to the quarter in which the Medicare payment amount begins to reflect sales of the first generic(s).
4
  Q4 refers to the quarter in which the Medicare payment amount fully reflects sales of the first generic(s).




                OEI-03-09-00510              M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                                                 27
                    A P P E N D I X ~ D

Table D-1: Estimated Generic Approval Timeline for the Top 26 Dollar-Volume Brand-Only Part B
Drugs (Biologics Excluded), According to FDA

                                                                                                     FDA-Estimated Generic             2009 Part B    2009 Part B
 Drug Name                                                        Brand Name                                             1                        2              3
                                                                                                        Approval Timeline            Expenditures          Rank

                                                                                                                                 4
 Oxaliplatin                                                                Eloxatin                Approved in generic form          $307,305,870              8

 Docetaxel                                                                  Taxotere                   After February 10, 2012        $273,059,887              9

 Zoledronic acid                                                             Zometa                           After April 30, 2012    $228,200,463             12

 Pemetrexed                                                                   Alimta           Currently eligible for approval        $224,725,011             13

 Gemcitabine hydrochloride                                                  Gemzar                   Approved in generic form         $214,841,468             14

 Bortezomib                                                                 Velcade                       After August 31, 2011       $157,915,565             19

 Leuprolide acetate                                                          Lupron                  Approved in generic form         $148,807,207             20

 Palonosetron hydrochloride                                                     Aloxi                         After April 30, 2012    $141,432,119             22

 Treprostinil sodium                                                   Remodulin                              After April 30, 2012    $112,277,602             26

 Octreotide acetate                                 Sandostatin Lar Depot                                     After April 30, 2012    $107,672,719             28

 Azacitidine                                                                 Vidaza                            After May 19, 2011     $101,648,346             29

 Zoledronic acid                                                             Reclast                           After May 18, 2011     $100,768,293             30

 Arformoterol tartrate                                                      Brovana                         After March 30, 2012        $77,081,333            32

 Paclitaxel protein-bound                                               Abraxane                              After April 30, 2012      $72,033,094            36
                                                                                               Currently eligible for approval
 Adenosine                                                            Adenoscan                      (legal disputes remain)            $69,316,718            39

 Triptorelin pamoate                                                         Trelstar                         After April 30, 2012      $67,684,223            40

 Decitabine                                                             Dacogen                                  After May 2, 2013      $62,196,704            42

 Doxorubicin hydrochloride liposome                                             Doxil                          After May 17, 2014       $49,619,144            47

 Iloprost                                                                   Ventavis           Currently eligible for approval          $48,970,602            48

 Mycophenolate acid                                                         Myfortic                     After January 17, 2012         $46,469,720            51

 Sirolimus                                                             Rapamune                               After April 30, 2012      $45,449,381            52

 Topotecan hydrochloride                                                Hycamtin                     Approved in generic form           $43,430,255            54

 Fulvestrant                                                            Faslodex                            After March 30, 2012        $40,709,396            57

 Ibandronate sodium                                                          Boniva            Currently eligible for approval          $25,710,811            66

 Imiglucerase                                                          Cerezyme                               After April 30, 2012      $24,355,150            70

 Verteporfin                                                            Visudyne                              After April 30, 2012      $17,308,914            80

             Total                                                                                                                   $2,808,989,996
Source: Food and Drug Administration (FDA) analysis of Part B drugs, 2009.
1
  Approximate date of April 30, 2012, is used by FDA to estimate how long it would take to approve an abbreviated new drug application if it is
  submitted before November 10, 2009, with a Paragraph IV Patent Certification.
2
  Part B Analytics Reporting (98 percent of claims reported). Accessed on March 29, 2010. Figures do not add to total because of rounding.
3
  Rankings include single-source drugs, multiple-source drugs, and biologics.
4
  Generic versions of this drug were initially approved and marketed, but litigation brought by the brand manufacturer against the generic
  manufacturers resulted in the discontinuation of generic sales.




          OEI-03-09-00510             M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                                          28
      A P P E N D I X ~ E



       Table E-1: Top 22 Dollar-Volume Biologics Under Part B

                                                                                                    2009 Part B        2009 Part B
            Drug Name                                              Brand Name                                  1                  2
                                                                                                  Expenditures              Rank

            Ranibizumab                                                    Lucentis                 $814,869,580                 1

            Rituximab                                                       Rituxan                 $807,136,671                 2

            Bevacizumab                                                     Avastin                 $723,336,581                 3

            Infliximab                                                  Remicade                    $605,603,464                 4

            Pegfilgrastim                                                 Neulasta                  $493,788,366                 5

            Darbepoetin alfa                                               Aranesp                  $426,599,502                 6

            Epoetin alfa                                          Epogen/Procrit                    $332,792,303                 7

            Trastuzumab                                                  Herceptin                  $211,603,637                15

            Cetuximab                                                        Erbitux                $165,132,074                18

            Abatacept                                                      Orencia                  $145,050,591                21

            Antihemophilic factor VIII
            (Recombinant)                                             (All brands)                  $125,289,250                24

            Botulinum toxin type A                                             Botox                  $88,997,730               31

            Coagulation factor VIIa                                   Novoseven                       $74,330,848               33

            Filgrastim                                                 Neupogen                       $69,897,511               38

            Natalizumab                                                     Tysabri                   $54,497,650               46

            Omalizumab                                                         Xolair                 $43,285,268               55

            Immune globulin                                            Vivaglobin                     $42,709,895               56

            Immune globulin                                 Gammagard Liquid                          $30,226,662               61

            Panitumumab                                                    Vectibix                   $27,170,683               63

            Coagulation factor IX
            Recombinant                                                     Benefix                   $25,176,467               67

            Antihemophilic factor VIII:C
            Human                                                     (All brands)                    $24,453,801               69

            Immune globulin, powder                                   (All brands)                    $21,200,286               74

                     Total                                                                       $5,353,148,820
        Source: Food and Drug Administration analysis of Part B drugs, 2009.
        1
          Part B Analytics Reporting (98 percent of claims reported). Accessed on March 29, 2010.
        2
          Rankings include single-source drugs, multiple-source drugs, and biologics.




OEI-03-09-00510             M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                      29
      A P P E N D I X ~ F




  Table F-1: Comparison of FDA’s ANDA Approval Dates and Actual Generic
  Entry Dates

    HCPCS                                                              FDA Generic                                  Estimated Actual
                                            Drug Name
    Code                                                              Approval Date                                Generic Entry Date

    First Generics With Comparable Entry Dates

    J0207                               Amifostine, inj.                 Mar. 14, 2008                                        May 2008

    J1325                            Epoprostenol inj.                   Apr. 23, 2008                                        May 2008

    J1451                               Fomepizole inj.                 Dec. 14, 2007                                         Jan. 2008

    J1626                              Granisetron inj.                 Dec. 31, 2007                                         Jan. 2008

    J3030               Sumatriptan succinate inj.                        Feb. 6, 2009                                        Feb. 2009

    J9206                                 Irinotecan inj.                Feb. 20, 2008                                        Mar. 2008

    J9245                                Melphalan inj.                   June 9, 2009                                       June 2009

    J9268                               Pentostatin inj.                  Aug. 7, 2007                                        Aug. 2007

    Q0166                             Granisetron oral                  Dec. 31, 2007                                         Jan. 2008

    Q0179                           Ondansetron oral                    Dec. 26, 2006                                   Jan.–Mar. 2007

    Q2009                            Fosphenytoin inj.                    Aug. 6, 2007                                        Aug. 2007
            1
    Q0167                  Dronabinol oral, 2.5 mg                      June 27, 2008                                         July 2008
            1
    Q0168                     Dronabinol oral, 5 mg                     June 27, 2008                                         July 2008
    First Generics With Conflicting Entry Dates

    J0692                                  Cefepime inj.                June 18, 2007                                   Jan.–Mar. 2008

    J7517              Mycophenolate mofetil oral                        July 29, 2008                                        May 2009

                                 Albuterol sulfate/
    J7620           ipratropium bromide inh. soln.                      Dec. 21, 2006                                  July–Sept. 2007
                                                                                              2
    FDA-Identified First Generics Which Did Not Come to Market

                                                                                                                      (Generics did not
            1
    J9201                             Gemcitabine inj.                  Dec. 18, 2008                                  come to market)

                                                                                                                      (Generics did not
            1
    J3265                                Torsemide inj.                 June 10, 2008                                  come to market)
    FDA-Identified First Generics Which Temporarily Came to Market

                                                                                                             (Products were launched in
                                                                                                           Nov. 2008 and ceased being
                                                                                                      distributed for sale by the generic
            1
    J7626                     Budesonide inh. soln.                     Nov. 18, 2008                    manufacturer later that month)
  Source: Food and Drug Administration's (FDA) Abbreviated New Drug Application (ANDA) Generic Drug Approvals and
   Office of Inspector General analysis.
  1
    These drugs were not included in our savings analysis.
  2
    No generics available as of fourth-quarter 2009.




OEI-03-09-00510         M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                                            30
       A P PEN 0                         x         G



     Agency Comments



           / - ...
       (       ~       DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Cenlers for MedIcare & Medicaid Services

           ,~                                                                                    AdministrAtor
                                                                                                  Washington, DC 20201




                     DATE:
                                   OCT 0 7 2010

                     TO: 	          Daniel R. Levinson 

                                    Inspector General 


                     FROM: 	        Donald Berwick, M.D. 
   /S/
                                    Administrator 


                     SUBJECT: 	 Office of Inspector General (OIG) Draft Report: Medicare Payments for Newly
                                Available Generic Drugs (OEI"03-09-0051 0)


                     The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                     respond to the OIG Draft Report entitled, "Medicare Payments for Newly Available Generic
                     Drugs" (OEI-03-09-0051 0). We appreciate the OIG's continuing efforts to examine payment
                     made under the average sales price (ASP) methodology.

                     The OIG report presents findings from a comparison ofMedicare payment amounts to market
                     prices for certain newly available generic drugs. The report finds differences between the
                     Medicare payment limits and the market prices for the generic drugs and attributes these
                     differences primarily to the "two-quarter lag" inherent in the Medicare payment limit calculation
                     process. The OIG claims that Medicare could have saved $111 million ifMedicare payment
                     limits had reflected sales prices during the period of initial generic availability of 16 different
                     drugs, and, therefore, urges that the two quarter lag be eliminated.

                     However, this estimate is based on the premise that no time lag would exist between the
                     introduction and inclusion of generics in the ASP. Such potential savings could not be achieved
                     because any calculation of payment that relies on manufacturer reporting would require a lag
                     time to allow manufacturers to calculate and submit their pricing data. Moreover, the 01G's
                     estimate also assumes that providers would immediately switch from branded to generic products
                     without factoring the lag time associated with the introduction of any new product in the market.
                     In addition, it is not clear from the report that the $111 million is not an annualized savings
                     amount, but instead a sum of potential savings over the course of several years.

                     CMS notes that almost 95 percent of the OIG's reported savings are attributed to three drugs and,
                     therefore, the 0I0's savings projections may not be accurate. Nearly $105 million of the $111
                     million in projected savings is attributed to three products, mycophenolate mofetil (generic
                     CeIlCept), albuterol sulfateiipratropium Bromide (generic DuoNeb) and irinotecan (generic
                     Camptostar). We do not believe that extrapolating savings projections that are based on such a
                     small subset of drugs to all generic drugs correctly represents Part B drug price changes due to
                     the introduction of generic drugs.




OEI·03·09·00510          MEDICARE PAYMENTS FOR NEWLY AVAILABLE GENERIC DRUGS
                                                                                                                                   31
A   P   P E N D       I X            ~          G




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 32
A   P   P E N D       I X            ~          G




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 33
A   P   P E N D       I X            ~          G




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 34
A   P   P E N D       I X            ~          G




    OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                                 35
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit.

                  Kevin McAloon served as lead analyst for this study. Central office staff
                  who contributed include Natasha Franklin, Kevin Manley, and Scott
                  Manley.




OEI-03-09-00510   M E D I C A R E PAY M E N T S   FOR   N E W LY A V A I L A B L E G E N E R I C D R U G S
                                                                                                             36
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
